#20-5236

IN THE SUPREME COURT OF THE UNITED STATES

Russell Rope,
Petitioner,
vs.

Facebook, Inc., Apple, Inc., Alphabet, Inc., Twitter, Inc.,
JPMorgan Chase & Co., & John Does 1 to 10,
Respondents,
On Petition for Rehearing
Petition for Extraordinary Writ
Specifically for Writs of Mandamus & Prohibition
The United States 'Court of Appeals for the Ninth Circuit &
The United States District Court for the Central District of California
#18-55782 & #2:17-cv-04921 + SCOTUS #19-5616

AFFIDAVIT & CERTIFICATION OF A PARTY UNREPRESENTED BY COUNSEL

Petitioner, Russell Rope, seeks [Emergency] Petition for Rehearing of Extraordinary
Writ(s) for the above entitled case number 20-5236. Briefly and distinctly stated, this
Petition is necessary, not limited to based on grounds not previously presented, which
can be elaborated upon as necessary, but also because constitutional due process rights
are being violated, life is in danger, and humanitarian rights of citizens are at stake.
Denying the previous Petition(s) were grave errors that must be corrected immediately
upon receipt of Petition is presented in great faith and not for delay. Grant this justice.
RUSS 0
10/17/20
Petitioner & Plaintiff In Pro Per
(310) 663-7655

Affidavit & Cert. of Party Unrepresented by Counsel; Petition For Rehearing; Case # 20-5236; Page # 1 of 1

#20-5236

IN THE SUPREME COURT OF THE UNITED STATES

Russell Rope,
Petitioner,
vs.
Facebook, Inc., Apple, Inc., Alphabet, Inc., Twitter, Inc.,
JPMorgan Chase & Co., & John Does 1 to 10,
Respondents,
On Petition for Rehearing
Petition for Extraordinary Writ
Specifically for Writs of Mandamus & Prohibition
The United States Court of Appeals for the Ninth Circuit &
The United States District Court for the Central District of California
#18-55782 & #2:17-cv-04921 + SCOTUS #19-5616

IN RE RUSSELL ROPE. [EMERGENCY] PETITION FOR REHEARING

Russell Rope
#1607 POB 1198
Sacramento, CA 95812
(310) 663-7655
Petitioner In Pro Per

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # of 21

TABLE OF CONTENTS

CASE SUMMARY

3

LIST OF PARTIES

4

QUESTIONS PRESENTED
o & RELIEF SOUGHT

INDEX TO APPENDICES

9

TABLE OF AUTHORITIES CITED

10

OPINIONS BELOW

12

JURISDICTION

12

CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED

13

STATEMENT OF THE CASE

14

REASONS FOR GRANTING THE WRIT(s)

17

CONCLUSION

21

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 2 of 21

CASE SUMMARY
Obstruction of Justice Must Be Terminated

This is a Petition for Rehearing; of the Petition for Extraordinary Writ, and a response to
what was added to the docket a couple of days ago (on the 15th), but with the 132 (the
13th) obstruction "number hack" date (when the decision was supposed to be made at
conference on the 9th) for the outrageous denial corresponding not only to the date for
final denial on the original Petition for Writ of Certiorari case # 19-5616, but also to a
repetitive pattern of obstruction in the lower courts and a similar pattern of racketeering
activity identified with evidence attached to the original Complaint. This is a gross
injustice and it must be corrected. The same pattern of 132 number hacks has been
stalking Petitioner with Respondent Does interposing both "substantial" and "controlling
effects" on not limited to business is money, physical health, property, and liberty.

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5.236; Page # 3 of 21

LIST OF PARTIES
Requires Option to Amend if Necessary

PETITIONER: Russell Rope is highly educated, incredibly knowledgeable, credibly
experienced, and a most talented genius with control of one thing being a flawless mind
and perfect mental health demanding your respect, which starts with commanding
JUSTICE is success with this Petition.

RESPONDENTS:
Facebook, Inc. is located in Menlo Park, CA.
Apple, Inc. is located in Cupertino, CA.
Alphabet, Inc. is located in Mountain View, CA.
Twitter, Inc. is located in San Francisco, CA.
JPMorgan Chase & Co. is located in New York, NY.
John Does Possibly to be Amended (Mentioned in FAC & Sealed Exhibit 52)

Facebook, Apple, Alphabet, Twitter, & Chase, being the only official Respondents, have
not changed on paper because there has not really been a proper opportunity to amend
additional corporations. Individual John Does, inchiding Jane Does and said additionally
problematic entities have not been dismissed in any court. The pursuit of justice does
not end with obstruction. The Court should recognize Petitioner's indomitable spirit and
legal experience in ordering conflict resolution now, so there does not have to be
another wave of legal action, or as many as it takes to achieve inevitable justice.

Petition For Rehearing @Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 4 of 21

QUESTIONS PRESENTED
Whether Petitioner Needs to Start Filing New Cases Plural
(with Arrest Warrants Attached)

* Whether The Court will honor The Constitution and applicable law by granting relief?

If not, then in as much specific detail as hurnanbh possible; why were all,
previous Petitions denied and how did each Justice vote on them?

RELIEF SOUGHT — is not all or nothing; more like everything or as much as possible:
SCOTUS Takeover by Granting Not Limited to One of These Options for Progress:
Writ for Local (in Los Angeles) Alternative Dispute Resolution ("ADR")
Or Temp. Relocate Petitioner to Washington DC; Through Trial @ SCOTUS
Or Preferably Writs for Award of The Proposed Relief Sought from ADR
Plus Original Relief that does Not Directly Involve Respondents as Follows

Immediately Requested Writs) for Relief from Government Entities:
Writ of Mandamus for Ca1VCB to Provide $100,000,000 of Victim Compensation
Writ of Mandamus for SSA to Provide Choice of Custom New Confidential SS#
Post Victory @ This Point Pending Possible Secure Name Change TBD
Writ of Mandamus for CIA to Release of Information

Petition For Rehearing Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 5 of 21

To Petitioner Any & All Information Pertaining to Petitioner &Jor This Cas
Writ of Mandamus for Exemption from Pacer Fees
Writ of Mandamus for Electronic Filing Access @ SCOTUS
Writ of Prohibition to Terminate Obstruction; Recusal of Previous District Judges
Writ of of Mandamus for Reversal of Quashed Subpoenas (Served By The Court)
Writ of Prohibition for "Any & All Law Enforcement" to Terminate Obstruction

Writ of Mandamus to DOJ for Restoration of Right to Bear Arms
& For Preferable Federal / International CCW / Security Clearance

Writ of Mandamus to LASD for Return of Small Pistol & Issuance of CCW Permit
LASD to Provide Cash for Equal Replacement if Destroyed

Writ of Mandamus to Superior Court of California for Termination of both Cases
#ZM025125 and #ZM029514 &/or Anything Mental Health Related
Copy of All Records, Reports, Transcripts; Evidence, etc. to be Delivered to
Petitioner & Then Permanently Destroyed

Writ of Mandamus for International Security & Investigation/Support from Secret
Service In Direct Communication with Petitioner; 18 USC §§ 3056 & 1030

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 6 of 21

Writ of Prohibition for Terminate Obstruction @ 9th Circuit
Writ of Mandamus for Appointment of Pro Bono (Assistant/Stand By) Counsel To
Assist Petitioner in Either ADR & Discovery @ Central Distridt or @ SCOTUS.

Plus Relief or Progress Towards Relief From Damages & Punitive as Follows

Immediately Requested Writ(s) for Discretionary Relief from Non-Government Entities:
I

i • •

Writ 'of Mandamus for.Trangfet Of Domain Name "rise.com"
From [Any Party] to Petitioner; or for Their Arrest Under RICO

Writ of Mandamug for Fair Sale or Property Title Transfer .(because "The Feds"
allegedly seized it) of Real Estate Known as "The Mountain" of BH
Located @ 1652 Tower Grove Dr., Beverly.Hills, CA 90210
or From [Any Party] to Petitioner Upon Legal Victory
or Paid for by Respondents
Read the rest of this Petition and see Appendix A

Petition For Rehearing @ Petition. For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 7 of 21

TABLE OF AU711-10RITIES CITED
RICO -18 USC § 1962(a)(c)
18 USC § 1964 - Civil Remedies
Johnson v. GEICO Cas. Co., 516 F. Supp. 2d 351 (D. Del. 2007)
Cited in FAC at Pages 1-4, 70-74
RICO/Civil Conspiracy -18 USC §§ 1962(a)(b)(c)(d) & 1349
Doctors' Co. v. Superior Court (1989) 49 Ca1.3d 44, citing Mox Incorporated v.
Woods (1927) 202 Cal. 675, 677-78.)' (Id. at 511.) & (Allied Equipment Corp. v.
Litton Saudi Arabia Ltd., supra, 7 Ca1.4th at 510-11.)
Cited in FAC at Pages 74-76
FRAUD - PEN § 470,18 USC § 1001, CIV § 1710, CIV § 3294
Computer Fraud - 18 USC § 1030 (a)(2)(c) & (a)(4),
18 USC § 1030(b), 18 USC § 1030(g)
.
Computer Fraud & Abuse Act (CFAA) § 1030(a)/(c)(4)(A)(i)(I)-(V)
18 USC §1961 Definitions (1)(B)(5)
Cited in FAC at Pages 77-79
Fraud by Wire, Radio, or Television -18 USC § 1343
Manual of Model Criminal Jury Instructions for the District Courts of the 8th
Circuit 6.18.1341 (West 1994)
Cited in FAC at Pages 81-82
Mail. Fraud: 18 USC Ch. 63 & Other Fraud Offenses § 1341
Cited in FAC at Pages 81-83
Criminal Threats - PEN § 422
Cited in FAC at Pages 84-86
Obscene, Threatening, & Annoying Communications - PEN § 653m
Cited in FAC at Pages 86-87
Stalking - PEN § 649(.9)
Cited in FAC at Pages 87-89
Assault & Battery - PEN §§ 240 & 242
Lowry v. Standard Oil Co. of California (1944) 63 Cal.App.2d 1, 6-7 [146 P.2d 57]
Cited in FAC at Pages 89-90

Petition For Rehearing Petition For Extraordinary Writ @ SCOTUS; Case # 20-236; Page # 10 of 21 -

Espionage - Economic & Personal -18 USC § 1831
Cited in FAC at Pages 91-92
Theft of Trade Secrets -18 USC §§ 1832 & 1836
Cited in FAC at Pages 92-94
Obstruction of Justice -18 USC §§ 1510,1513, & 1985
Cited in FAC at Pages 94-96
False Imprisonment - 1240-1: PEN §§ 210.5, 236; 42 USC § 1983
Cited in FAC at Pages 98-99
Perjury -18 USC § 1621; CPC § 118(a)
Cited in FAC at Pages 99-101
Robbery & Theft/Burglary - 18 USC § 2113; PEN §§ 211, 484, & 458
Cited in FAC at Pages 101-103
Attempted Murder (Assault & Battery) - 18 USC §§ 1113 & 113
Cited in FAC at Pages 103-105
Defamation - .CIV §§ 44(a)(b); 45-46
Smith v. Maldonado (1999) 72 Cal.App.4th 637, 645 [85 Cal. Rptr. 2d 397]
Cited in FAC at Pages 106-107
Unfair Competition - CBPC § 17200-17210
Intentional Interference with Economic Relations
Unfair Competition Law (UCL) 288. CBPC § 17200 et seq.
(UCL) (Bus. & Prof. Code, § 17200)
Levine v. Blue Shield of California, 189 Cal. App. 4th 1117, 1136 (2010)
Schwartz v. Provident Life & Accident Ins. Co., 216 Cal. App. 4th 607, 611 (2013)
Cited in FAC at Pages 107-108
Intentional Infliction of Emotional Distress - Civil Tort
Hughes v. Pair (2009) 46 Cal.4th 1035, 1050-1051
[95 Cal.Rptr.3d 636, 209 P.3d 963]
Cited in FAC at Pages 108-113

Petition For Rehear* @ Petition For Extraordinary Writ @ SCOTUS; Case Pi 20-5236; Page # 11 of 21

Cybersquatting - ACPA USC 15 § 1125(d)
Anticybersquatting Consumer Protection Act: 15 USC § 1125(D) Sec. 1125
False Designations of Origin, False Descriptions, and Dilution Forbidden
[Fraudulent Misrepresentation]
Cited in FAC at Pages 111-113
EEO Violations 42 USC 2000e-2(a)
Title VII of Civil Rights Act of 1964
Cited in FAC at Pages 113-114

IN THE SUPREME COURT OF THE UNITED STATES
EMERGENCY PETITION FOR EXTRAORDINARY WRIT(s)
To be Granted for the Best Reason

Petitioner respectfully demands, by law and based on emergency, that several writs issue
for expedited progress in this collective case, for any and all relief SCOTUS cart provide.

OPINIONS BELOW
Facts Above & Throughout
Opinions below the fact this case is meritorious and Respondents are truly malicious.

JURISDICTION
Not Limited To Rule 44(2) & The Constitution

Jurisdiction of SCOTUS @ 28 USC §1254(1)
Article la, Section II of The Constitution

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 12 of 21

Judicial Review @ Marbury v. Madison (1803)
The Judiciary Act of 1789 SCOTUS Jurisdiction to issue Writs of Mandamus
Article VI of The Constitution establishes the Constitution as the Supreme' Law
The Fourteenth Amendment & DUE PROCESS and 28 USC § 1651
SCOTUS Rule 20: "Extraordinary Writ authorized by 28 U. S. C. §1651(a)..."

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Due PiocesS Is :All That Really Matters

First Amendment: "freedom' of speech... of the press.... right of. the people
peaceably to assemble, and to petition the Government for aTedress"
Second Amendment "...the right of the people to keep and bear Arms"
Fourth Amendment: "...againSt unreasonable searches and seizures..."
Fifth Amendment: "nor. be deprived of life, liberty, or property...DUE PROCESS"
Sixth Amendment "...and to have the-assistance of counsel for his defence..."
Eighth Amendment: "Excessive bail shall not be required, nor excessive fines
imposed, nor cruel and unusual punishments inflicted."
Fourteenth Amendment: "DUE PROCESS of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
Case Law: Exception To Res Judicata:
"The United States Supreme Court has stated for at least ninety years that only 'in

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Pau # 13 of 21

Justices could be replaced with artificial intelligence. The Courts are supposed to be
lenient towards pro per technicalities, not looking for bogus excuses to deny vital rights
and then refusing to discuss them for what reason? This case is absolutely.not frivolous,
so was the evidence not considered by technicality?

Not that it should matter, and not limited to because Petitioner was waiting for an order
for a riew,qopial security number before completing :the name change process at the DMV
(now might have to change the name again because, of ID theft, bank traud,, and
dangerously libelous records), but it may be relevant to let The Court know that the
ridiculous delays in justice resulted in Petitioner finally acquiring a REAL ID under his
most legal name "Russell Rope" and that anyone with his previous last name is more than
suspect of criminal racketeering as previously identified ;under seal. Unprovoked daily
violations have not stopped.

The stalking, computer-fraud-espionage, and attacks, have been incessant and whatever
lies are permitting the intolerable are only being used to steal business assumingly under
false pretenses. Some recent gross violations include not only SBA Disaster Loan fraud
obstructing deserved public funding to replace stolen technology necessary to conduct
business, but the screen watching losers sunk so 'low as to delay, for months, and then
steal instead of deliver the replacement camera/smart-phone ordered from the frauds at
Wish dot corn. There was' a serious fraud problem with several stimulus check

.Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 16 of 21

investments, some of which is connected to more grand violations, but this is not the
time to delve into detail. There are many grounds not previously presented yet worth
rePorting, but preference is to keep the eye on the prize and move away from what is
simply not safe to talk about at this juncture.

Shady obstruction regarding everything filed in all three levels of federal courts is a fact,
but not worth getting into right now-if:at all; ultimate justice is more important than any
of the petty obstruetors. The ,'Court can decide hOw or if and when to deal with
incompetent Does, but the Respondents must pay or said Does, responsible executives,
and corrupt 'authorities should all be sent ion an indefinite vacation to federal prison.
What is the treble damage karma for people trying to take all of the Petitioner's life?
* Hint:. $100,000,000,000; .rie.com; & The Mountain

REASONS FOR GRANTING THE PETITION
THE LAW. Why Not?

WHY WRIT(s) SHOULD ISSUE: Legally The Man Who Created & Owns The Plan

This is not a game or some get rich quick scheme. Petitioner was an award winning
visual artist and developer, then a successful entrepreneur, the first college graduate of
his generation of his extended family, and has been on the same track since childhood.

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 17 of 21

Dumb Does are literally trying to take Petitioner's life. Success is inevitable and
undeniable where the claims are as real as the scars. Apparently some unreal people do
not have a modern enough reading comprehension level to recognize real.. The attached
art and architecture is another example of how Petitioner's brilliant mind works on a
new practice, such as law, so logically that an illiterate person can see the truth in
another light on top of previous presented evidence., •

Appendix "A" as in Architecture includes some renderings of. Petitioner's technical real
estate development plans for projected use of some legal winnings. Petitioner had never
used architecture software before watching a bunch of tutorials, the equivalent to
reading the legal rules, then sitting down and building the modern sculpture from scratch
without any help. That does not mean Petitioner does not want to give or receive help.
This development would certainly require a team to complete, unlike pro se legal work
despite being obstructed from acquiring representation; point being good things could
then very possibly include hiring that team .to build more permanent and job creating
shelters for the homeless as Petitioner is serious about giving back; "Philanthropreneur."

If Petitioner can breeze through this very complicated technical design work on such an
advanced level of initial attempt, and post fabricated mental health framework; what or
who is to say he cannot keep his sanity and equally file a perfect lawsuit defending his
life on the first try? ( 2014 > 2017 < FAC ) Sometimes you only get one shot, the original

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 18 of 21

filings were good enough if not flawless. Life is not a video game with a cheat code for
infinite lives. One turn is too many for obstruction of justice. There is no excuse. The
innovative pursuit has alwayS required and demonstrated a sincere and much deserved
need and' potential use for funds. Petitioner has survived on efficiency and the only
money problems he has ever had are all a- result of the combination of insider bank
robbery plus false imprisonments that accounted for disruption of perfect credit.
Petitioner had always been the most successful businessman amongst his large peer
network leading tip to the:first recognizable pattern of racketeering activity: Mo'ney wise
knows that it is a tool and hoW' to use Auto make more of it. Unlike a money burning
joker; Petitioner has always worked hard, paid dues and debts, and the financial
framework alone is insulting enough to put'the bank out of business.

This is not just about the money though. The domain name is how Petitioner was going
to -make the money on his own; which is why. Respondents were spying and defrauded
him of what at the time and still is a life's work; additionally, the one-of-a-kind
undeveloped residential property known as "The Mountain," or "The Crown Jewel" at
time of discovery, and formerly "The Vineyard," is what Petitioner would have spent a
big chunk of change on, where some spying trapping Respondents Does lured him into
the claim and have been trying to defraud him of it and everything else because they are
fake and trying to make names for themselves. Real estate planning by delusional
racketeers has been playing into the false hierarchcal scheme of fraudsters and their

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 19 of 21

insane egos to the point .where one dumb billionaire Doe, who was named under seal,
exploited Petitioner's idea for a "modern fortress" before trying to pawn off the
neighboring Trousdale (Beverly Hills) house on a slightly lower elevation with a slightly
less awesome view, to Petioner, but most probably with plans to upgrade and move
another dumb falsely entitled Doe onto the better lot next door. Nobody wants to play
the fool, and no legitimate genius should tolerate playing subordinate to a criminal who
ranks with goons and all of whom possess intellectually inferior minds. These things,
including the. nonphysical such as "intellectual property" and "justice," are real, they
matter, and are worth'fighting for; preferably by law and in court.

Last but not least, this is about family, but not from the poor perspective of people with
limited or framed vision. Petitioner's future family, opposed to the criminal families
trying to use obsolete frameworks as false justification to obstruct justice and steal from
Petitioner, which is also stealing from and obstructing the wife Petitioner would love to
have and children you better believe of whom Petitioner is going to be the best father.
Respondents have already disrupted Petitioner's family, business, and basically his entire
life. That disruption can cost others their freedom is _life. Petitioner did not choose to
file a lawsuit. Petitioner was attacked and chose to defend his life in the most peaceful
way possible. The Justice system, or at least the civil side of it, was created for that
purpose, not the opposite.

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 20 of 21

The choice should be simple. "Give [Petitioner] Justice[s], or give [Respondents & Does]
death" via their getting sentenced to prison down the line, in this court or the next, from
Petitioner's inevitable legal victory.

CONCLUSION
Due Process &Justice for Petitioner is. The People

In :conclusion, irreparable damages have been done, to the Petitioner; and-area still
accumulating along with collateral, damage.. The enterprise' of Respondents has not
stopped, nor have they issued any demands to go along with their relentless terrorism.
: Petitioner has no intention of negotiating with people who act like terrorists, and neither
should The United States of America. Respondents need to give up the loot or get
terminated and go to prison. They still have not denied a single accusation in the face of
indisputably clear and convincing evidence, which should speak in volumes about all
that matters. The Court must assume Respondents will continue to violate not only the
Petitioner, but also others, and with worse than civil war crimes. Please terminate
obstruttion of justice as soon as humanly possible in this lifetime and join in justice on
the rise.

10/17/2020
RO
/s/ RUSS
Petitioner & Petitioner In Pro Per

Petition For Rehearing @ Petition For Extraordinary Writ @ SCOTUS; Case # 20-5236; Page # 21 of 21

